<html>
<title> - CONSERVATION POLICY RECOMMENDATIONS FOR THE FARM BILL</title>
<body><pre>[Senate Hearing 110-155]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-155
 
                  CONSERVATION POLICY RECOMMENDATIONS
                           FOR THE FARM BILL
=======================================================================
                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION


                               __________

                              MAY 1, 2007

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov

                     U.S. GOVERNMENT PRINTING OFFICE

35-053 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




















           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                       TOM HARKIN, Iowa, Chairman

PATRICK J. LEAHY, Vermont            SAXBY CHAMBLISS, Georgia
KENT CONRAD, North Dakota            RICHARD G. LUGAR, Indiana
MAX BAUCUS, Montana                  THAD COCHRAN, Mississippi
BLANCHE L. LINCOLN, Arkansas         MITCH McCONNELL, Kentucky
DEBBIE A. STABENOW, Michigan         PAT ROBERTS, Kansas
E. BENJAMIN NELSON, Nebraska         LINDSEY GRAHAM, South Carolina
KEN SALAZAR, Colorado                NORM COLEMAN, Minnesota
SHERROD BROWN, Ohio                  MICHEAL D. CRAPO, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota             CHARLES E. GRASSLEY, Iowa

                Mark Halverson, Majority Staff Director

                      Robert E. Sturm, Chief Clerk

            Martha Scott Poindexter, Minority Staff Director

                Vernie Hubert, Minority General Counsel

                                  (ii)

  


















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Conservation Policy Recommendations for the Farm Bill............     1

                              ----------                              

                          Tuesday, May 1, 2007
                    STATEMENTS PRESENTED BY SENATORS

Harkin, Hon. Tom, a U.S. Senator from Iowa, Chairman, Committee 
  on Agriculture, Nutrition, and Forestry........................     1
Chambliss, Hon. Saxby, a U.S. Senator from Georgia...............     2
Cardin, Hon. Benjamin L., a U.S. Senator from Maryland...........     6
Leahy, Hon. Patrick J., a U.S. Senator from Vermont..............     9

                                Panel I

Doyle, Hon. Jim, Governor of Wisconsin, Madison, Wisconsin, on 
  behalf of the Midwestern Governors Association.................     4
Menendez, Hon. Robert, a U.S. Senator from New Jersey............     7

                                Panel II

Hansen, John, President, Nebraska Farmers Union, Lincoln 
  Nebraska, on behalf of the National Farmers Union..............    20
Harrington, Bob, State Forester, Missoula, Montana, on behalf of 
  the National Association of State Foresters....................    24
Hoefner, Ferd, Policy Director, Sustainable Agriculture 
  Coalition, Washington, DC......................................    18
Sibbing, Julie, Senior Program Manager for Agriculture and 
  Wetlands Policy, National Wildlife Federation, Washington, DC..    21
Sims, Olin, President, National Association of Conservation 
  District, McFadden, Wyoming....................................    16
                              ----------                              

                                APPENDIX

Prepared Statements:
    Cochran, Hon. Thad...........................................    38
    Crapo, Hon. Mike.............................................    42
    Cardin, Hon. Benjamin L......................................    43
    Doyle, Hon. Jim (with attachments)...........................    46
    Hansen, John.................................................    76
    Harrington, Bob..............................................    83
    Hoefner, Ferd................................................    87
    Menendez, Hon. Robert........................................   104
    Sibbing, Julie (with attachments)............................   106
    Sims, Olin...................................................   146
Document(s) Submitted for the Record:
American Peanut Shellers Association, prepared statement.........   154
Coevolution Institute (CoE), prepared statement..................   159
Cullen Bryant, Farmer, prepared statement........................   165
National Cattlemen's Beef Association, prepared statement........   166
South Carolina Department of Natural Resources, prepared 
  statement......................................................   174
The National Pork Producers Council, prepared statement..........   179
Various Organizations, Researchers and Individuals, prepared 
  statement......................................................   193
Question and Answer:
Cochran, Hon. Thad:
    Written questions for all panelists..........................   196
Hoefner, Ferd:
    Written response to questions from Hon. Thad Chochran........   197



                  CONSERVATION POLICY RECOMMENDATIONS

                           FOR THE FARM BILL

                              ----------                              


                          TUESDAY, MAY 1, 2007

                                       U.S. Senate,
                                  Committee on Agriculture,
                                   Nutrition, and Forestry,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 2 p.m., in room 
SR-328A, Russell Senate Office Building, Hon. Tom Harkin, 
Chairman of the Committee, presiding.
    Present: Senators Harkin, Leahy, Stabenow, Salazar, Brown, 
Klobuchar, Chambliss, Lugar, and Crapo.

    STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM IOWA, 
  CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY

    Chairman Harkin. The Senate Agriculture, Nutrition, and 
Forestry Committee will come to order. Today our hearing 
focuses on the Conservation Title of the farm bill, and we have 
two distinguished panels of witnesses. I particularly want to 
express my gratitude to Governor Jim Doyle of Wisconsin for his 
appearance here representing the Midwestern Governors 
Association. I also want to thank our colleagues, Senator Ben 
Cardin of Maryland and Senator Robert Menendez of New Jersey, 
who I am sure will be here shortly.
    Now, while this hearing exclusively focuses on the 
Conservation Title, the Committee has already heard views from 
many witnesses on conservation in a recent series of hearings 
on livestock and commodities in many of our field hearings. 
Now, that is appropriate because, increasingly, agricultural 
producers integrate conservation of soil, water, air, and 
wildlife into their production practices.
    By and large, the message I have heard from these previous 
hearings is that farmers want us to provide the tools they need 
to most effectively farm their land. They want programs that 
help them do better conservation on the land that produces 
food, fiber, and fuel for America. The current demand for 
commodities such as corn only increases the need for effective 
conservation programs as land that was seen as marginal is 
brought into production to meet that demand. So there is an 
increase in demand for conservation assistance, yet the funding 
available is not enough to deal with the needs that exist now, 
let alone ones that will come down the pike.
    The Wetlands Reserve Program, for example, has reached its 
cap. It has no ongoing baseline. Just to maintain the current 
program over the next 5 years would cost about $2 billion. The 
Grassland Reserve Program also has no ongoing baseline.
    The biggest hit to the programs, however, has been the cuts 
made to the Conservation Security Program. Long-term caps 
imposed by the previous Appropriations Committee and in 
reconciliation--both done, I might add, in conference reports 
without the ability to amend or to have a vote--have cut this 
program by some $4 billion and put the caps on it, which we 
never had in the last farm bill. As written, CSP uncapped 
entitlement program, and, again, just for your benefit, I will 
repeat, as I repeat as often as I can: For the first time in 
history in 2003, the Congress took money out of agriculture to 
pay for disaster.
    We had never done it before, and we have not done it since. 
Or at least the bill that the President has headed to him right 
now has disaster money in there, but it comes out of emergency 
spending not agriculture. We did not say to any State--we did 
not say to Louisiana, for example, when we got them money for 
Katrina, we did not say, ``OK, now we are going to take it out 
of your highway money. We are going to take it out of your 
education money.''
    No, we never do that. Whenever there is a disaster, we pay 
for it out of the general revenue. We all pay for it. Yet, in 
2003, this administration--and this Congress going along with 
it, I might add--took money out of conservation just to pay for 
disasters, and that has made us, as I said, some $4 billion 
short in conservation. Think what that would have meant had we 
had that money there for conservation.
    Well, the damage has been great, and it is going to be 
tough to recover from that $4 billion hole unless we get that 
$4 billion restored. And I do not see that happening anytime 
soon. But I just wanted to make that point just to let you know 
that, as I told Governor Doyle, I said I am proud of the fact 
that this Committee, when I last chaired it in 2001 and 2002, 
put in the biggest increase ever in conservation funding of any 
farm bill. We had an 80-percent increase in conservation. But a 
lot of that has been eroded, as I just mentioned. A lot of that 
has been eroded. And so now we need to come back and do it 
again, and we have expert panels here today to talk about 
conservation and what it means in their States and suggestions 
for us in moving ahead on the farm bill.
    So what I would like to do is, first of all, say that all 
of your statements will be made a part of the record in their 
entirety, and I will first call on Governor Doyle. Before I do 
that, I will yield to Senator Chambliss for an opening 
statement.

 STATEMENT OF HON. SAXBY CHAMBLISS, A U.S. SENATOR FROM GEORGIA

    Senator Chambliss. Thank you very much, Mr. Chairman. I 
apologize for running late here.
    Conservation is a key component of our farm policy and 
enjoys broad support from a wide variety of conservation, 
environmental, farm, forestry, and wildlife organizations. The 
vast interest in conservation programs also demonstrates how 
valuable farmers and ranchers are to the protection and 
enhancement of our land and environmental resources.
    One particular area I would like to address in the 2007 
farm bill is how agriculture and individual farmers can help 
tackle climate change. While I am not sure we understand all 
the science of climate change, there are some reasonable steps 
we can take to begin mitigating its effects and ensure 
agriculture can meaningfully participate in any future emission 
reduction program developed by Congress.
    It is estimated that agriculture is responsible for 6 
percent of all greenhouse gas emissions in the United States, 
but it also helps to offset those emissions. And it can do even 
more by sequestering additional carbon in soils and biomass, 
capturing methane gas from livestock operations, and replacing 
fossil fuels with biofuels produced on farms and forests.
    I am encouraged by Federal, State, and private efforts over 
the past few years to include agriculture in carbon credit 
trading programs. However, it is time to go beyond the minimum 
standards that have been set and develop more robust 
certification, measurement, and verification standards.
    The U.S. Department of Agriculture has proposed to create a 
board to establish and oversee these standards. We should 
carefully review this proposal for inclusion in the farm bill. 
We have a great opportunity with the 2007 farm bill to further 
incorporate climate change into existing conservation and 
energy programs and to ensure agriculture can participate in 
carbon and ecosystem services markets. I look forward, Mr. 
Chairman, to working with you to make this opportunity a 
reality.
    Before I close, I would like to welcome Senator Cardin and 
Senator Menendez to the Ag Committee. Guys, it is good to see 
you all here. Thank you for taking time to share with us your 
priorities for the 2007 farm bill. As you know, farm bills are 
carefully crafted legislative packages that balance many 
competing interests and seek to address concerns from all parts 
of the country. I hope that as we work to address your 
concerns, you will also recognize and work with us to address 
ours. If we do that, I believe we will have a strong 2007 farm 
bill that supports farmers and ranchers, protects and enhances 
our environment, provides sustenance to the needy, and promotes 
rural America
    Thank you, Mr. Chairman.
    Chairman Harkin. Thank you, Senator Chambliss.
    And now we will turn to our witnesses. First, we will 
recognize the Honorable Jim Doyle, Governor of the State of 
Wisconsin. Governor Doyle was elected Governor in 2002, then 
re-elected in 2006, my notes tell me, with more votes than any 
candidate for Governor in Wisconsin history. Before that, from 
1990 to 1998, he served as the Attorney General for the State 
of Wisconsin, before that had his own private law practice.
    Governor Doyle, welcome to the Committee, and please 
proceed. If you could, I am going to ask everyone just if you 
can keep it to basically 5 minutes or so, I would sure 
appreciate it, and then we will get through this panel, have a 
few questions.
    So, Governor Doyle, welcome.

 STATEMENT OF HON. JIM DOYLE, GOVERNOR OF WISCONSIN, MADISON, 
  WISCONSIN, ON BEHALF OF THE MIDWESTERN GOVERNORS ASSOCIATION

    Governor Doyle. Well, Mr. Chairman, thank you very much, 
and, Senator Chambliss, members of the Committee. And I did 
have the honor of serving as Attorney General with Senator 
Salazar in those years, and we did a lot of work together on 
environmental issues and conservation and so on.
    I am very pleased to be here to have an opportunity to 
discuss the Conservation Title of the farm bill. I am here in 
my role as the Governor of the State of Wisconsin, but also as 
chairman of the Midwest Governors Association. The Midwest 
Governors Association has advanced a full slate of farm bill 
recommendations and policy objectives which are in a nice 
packet and will be shared with all of the members of the 
Committee.
    I particularly want to thank Governor Tim Pawlenty of 
Minnesota, the Immediate Past Chair of the Governors 
Association, who worked very hard to put that set of 
recommendations together that comes from Midwest Governors, 
Democrats and Republicans alike.
    I have also worked very closely with my colleagues in the 
Midwest Governors to identify three priority areas to address 
during my term as Chair: first, we will work to achieve energy 
independence and fight global warming through the use of 
biofuels and other renewable energy sources; second, we will 
increase our region's trade potential, reaping the economic 
opportunities that come with it; and, finally--and what brings 
me here today, what is incredibly important to us in the 
Midwest, as it is to States, particularly heavy agricultural 
States across the country--is the reauthorization of the farm 
bill.
    Creating a farm bill that enhances Wisconsin's ability and 
the ability of the region to pursue new energy technologies 
from agriculture and forest products, protects our working 
agricultural and forestlands, provides nutrition to our 
families, and supports rural economic development is vital not 
only to the strength of the State of Wisconsin but to our 
region and to the entire Nation.
    In Wisconsin, we have a history that we are very proud of 
in conservation. We are the home of Aldo Leopold, John Muir, 
and the great Senator Gaylord Nelson, and we have long 
recognized that we must be good stewards of the land and 
conserve our invaluable natural resources.
    So today I have been asked by the Committee to focus my 
testimony on the Conservation Title of the farm bill, something 
I feel very strongly about, because as a Governor and working 
through all of our conservation programs in the State, we rely 
very, very heavily on our agricultural community, which is so 
important to the good conservation practices in the State.
    While more than half of America's land is managed by 
farmers, three out of four farmers are rejected when they seek 
USDA conservation assistance. And in Wisconsin, more than one-
third of conservation requests have been unfunded. Current 
Federal farm policies, we hope, will do more to assist farmers 
who share the cost of ensuring clean air, clean water, 
sufficient wildlife habitat, and a stable climate.
    A new farm bill we hope will also better recognize the 
important role played by State government. Increased funding of 
the State-Federal conservation partnerships is not just a good 
idea. It may be absolutely necessary for future farm policy, 
and it is this model of partnership that should guide us as we 
move farm conservation policies forward in the next farm bill.
    Farmers in Wisconsin, as they are in States all across the 
country, are really the backbone of our State, and they are 
certainly central to our conservation efforts. They are proud 
of who they are and what they do with their land. And if this 
bill provides them with the tools they need, they will provide 
our country with the renewable energy that is good for our 
national security and our environment.
    To success in this effort, I encourage Congress to director 
the United States Department of Agriculture to explore new 
methods to promote managed and sustainable biomass harvest on 
lands enrolled in the conservation programs, and particularly 
the Conservation Reserve Program. Furthermore, the USDA should 
explore ways to properly manage biomass removal from lands 
under active agriculture and timber production to ensure proper 
management. These new initiatives will be consistent with 
existing conservation programs and will inspire valuable new 
opportunities for farmers in Wisconsin and across the country.
    There are several, obviously a lot of very specific 
programs. I could just briefly mention three.
    The Conservation Research Enhancement Program is an 
important part of what we do in Wisconsin as a good partnership 
between our farm community and the State government. In 
Wisconsin, CREP is currently authorized for 100,000 acres and 
brings in payments of $40 million annually to Wisconsin 
landowners. We certainly hope that you are going to consider 
expanding the national acreage cap to 40 million acres so we 
can bring more into the program.
    Second, the EQIP program, Environmental Quality Incentive 
Program, is based on working with farmers for good conservation 
practices, and we have many of our current applicants being 
denied. We hope you are really going to--it has proven to be a 
model that has been very effective.
    And, finally, the Wetlands Reserve Program, what has 
happened in Wisconsin is that as the value of this land goes 
down, the program is now being used in much smaller percentages 
than it was in recent years. And as we know, good wetland 
preservation is absolutely important for the environmental 
health of our States.
    So, again, I thank you very much for allowing me to give my 
views here today, and we look forward--I know the Midwest 
Governors do, and I know the Governors across the country, we 
look forward to working with you to get a good, balanced farm 
bill and one particularly that furthers the conservation 
efforts that are going on in our States.
    Thank you.
    [The prepared statement of Governor Doyle can be found on 
page 46 in the appendix.]
    Chairman Harkin. Governor Doyle, thank you very much, and 
if time permits, if you could wait until we get through the 
other two, and then some people may have some questions or 
engage you on this.
    Next we will turn to Senator Cardin. Senator Cardin was 
first elected to the U.S. Senate this year, in January of 2007, 
and before that served in the House of Representatives 
representing the 3rd District and elected to the House in 1987 
and then became one of the youngest speakers of the Maryland 
House of Delegates in Maryland history, a position he held for 
8 years.
    So, again, Senator Cardin, Ben, welcome to the Committee, 
and please proceed.

   STATEMENT OF HON. BENJAMIN L. CARDIN, A U.S. SENATOR FROM 
                            MARYLAND

    Senator Cardin. Mr. Chairman, thank you very much, and 
members of the Committee. I really do appreciate this 
opportunity to testify before you today. Agriculture is 
Maryland's largest industry. The State's 12,100 farms cover 
more than 2 million acres and produced $1.3 billion of 
agricultural products annually. But the reason that I ask for 
your support and come before the Committee today is not limited 
to the importance of agriculture to Maryland.
    The Chesapeake Bay is America's largest estuary. The 
watershed covers 64,000 square miles. The bay and its tidal 
rivers have more shoreline than the entire west coast of the 
United States. The Chesapeake is central to the economy, 
history, culture, and social fabric of my State and this entire 
region.
    All of us recognize that the health of the Chesapeake Bay 
is at risk. Every summer we see low oxygen ``dead zones'' and 
historically low numbers of blue crabs and native oysters.
    The Bay States have adopted the most comprehensive 
watershed cleanup strategy in the Nation. More than 450 
wastewater treatment facilities have had to cut their nitrogen 
and phosphorus discharges substantially. Maryland now requires 
that both dishwashing soaps and laundry detergents be 
phosphorous free. Scotts, the Nation's largest lawn care 
company, has agreed to cut in half the amount of phosphorous in 
its do-it-yourself lawn fertilizers in the Chesapeake 
watershed. The Bay States have adopted nitrogen oxide air 
pollution controls that go well beyond the Federal 
requirements. These will translate into less nitrogen deposits 
into the bay waters.
    I mention these non-agricultural initiatives because we 
must ask all sectors of the economy to contribute their fair 
share to the effort to restore the bay.
    The single largest source of excess nitrogen, phosphorus, 
and sediment into the bay is from agriculture. The USDA's 
conservation programs are critically important to both 
sustaining agriculture and simultaneously minimizing its impact 
on the water resources of the basin. Chesapeake Bay watershed 
farmers have made extensive use of existing conservation 
programs and support their expansion under the 2007 farm bill.
    As you begin to craft the Conservation Title of the next 
farm bill, I ask that you give the farmers of the Chesapeake 
region the tools they need to be successful--both in the 
marketplace and as stewards of this national treasure, the 
Chesapeake Bay.
    Mr. Chairman, in my written testimony I have listed a 
number of specific recommendations. Let me just summarize them 
just very briefly.
    No. 1, our farmers need a broad array of conservation 
tools. Not all farms are alike. We need a comprehensive set of 
programs with broad eligibility requirements to address those 
needs.
    No. 2, technical assistance can be as important as direct 
funding. Trusted, on-the-ground experts are invaluable in our 
farming community.
    Three, we need to target our conservation dollars to the 
areas that have demonstrated water quality needs. I think we 
can further refine that targeting by putting our conservation 
dollars to work in watersheds where all segments of society are 
doing their part for water quality improvements.
    Mr. Chairman, the needs in the Chesapeake watershed are 
great, but we have farmers with a proven track record of 
supporting every conservation program that Government has made 
available to them. We owe it to our farmers, and we owe it to 
the Chesapeake.
    I appreciate your time, and I do look forward to working 
with the Committee so we have a balanced, comprehensive farm 
bill that we all can be proud of.
    [The prepared statement of Hon. Benjamin L. Cardin can be 
found on page 43 in the appendix.]
    Chairman Harkin. Thank you very much, Senator Cardin.
    Now we turn to Senator Menendez of New Jersey. Senator 
Menendez was appointed to fill the unexpired term of former 
Senator, now Governor, Jon Corzine; just elected to his first 
full term in the United States; prior to that, a long-time 
member of the House and one of the House leaders in the U.S. 
House of Representatives.
    Again, Senator Menendez, welcome to the Committee.

  STATEMENT OF HON. ROBERT MENENDEZ, A U.S. SENATOR FROM NEW 
                             JERSEY

    Senator Menendez. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear before you and the members of the 
Committee. I appreciate your leadership for a long time in this 
field in making this a country of great bounty and trying to 
share that bounty with more and more Americans. And I 
appreciate Senator Chambliss' comments about working toward a 
bill that all of America can take pride in and participate in.
    I want to focus my comments on legislation that I have 
introduced with others, the Healthy Farms, Foods, and Fuels Act 
of 2007. As you work to develop this year's farm bill, I hope 
you will consider including some of the very important 
components of this legislation. The Healthy Farms bill is 
crucial because we have a tremendous opportunity this year to 
set a healthier course for American agriculture, to allow our 
farmers, ranchers, and foresters to thrive while giving them 
the tools they need to meet our environmental and energy 
challenges, to open up new markets and opportunities for our 
small farmers, and to provide consumers and school children 
with more fresh fruits and vegetables, and make it easier for 
lower-income Americans and the elderly to have access to 
healthier foods. Like all legislation, a farm bill in my mind 
is a statement of priorities and of values, and the Healthy 
Farms, Foods, and Fuels Act embodies many of the priorities and 
values that I believe we as a Nation should be focused on.
    Now, though many people are not aware of New Jersey's 
thriving agricultural sector, Mr. Chairman, we are the second 
largest producers of blueberries, cultivated blueberries in the 
Nation, peach orchards, cranberry bogs, fourth largest producer 
of spinach, and the list goes on and on. The fact is that we 
are the Garden State, and a healthy agricultural sector 
nationwide, one that addresses the needs of all of our farmers, 
whether they grow corn in the Midwest or blueberries in the 
Midatlantic, is essential for New Jersey to remain the Garden 
State.
    However, New Jersey farmers are under a tremendous amount 
of pressure. They operate in a very high-cost environment and 
see development encroaching on their farms from all sides. And 
often that development opportunity is greater to them than that 
which they could have by maintaining and operating their farms, 
but they choose to do so. This is often multigenerational 
family farmers. So conservation programs are crucial to the 
survival of agriculture in the Garden State and to the 
protection of sensitive wetlands and animal habitats. That is 
why the Healthy Farms bill increases funding and expands 
eligibility for the Environmental Quality Incentives Program, 
the Conservation Reserve Program, the Conservation Security 
Program, the Farmland and Ranchland Protection Program, the 
Wetlands Reserve Program, and Wildlife Habitat Incentive 
Program.
    New Jersey farmers are also among the most prolific in the 
country in growing fruits and vegetables, yet they are often 
just a few miles from distressed communities where children 
struggle for access to nutritional foods. The Healthy Farms 
bill expands the Fresh Fruit and Vegetable Program to schools 
in all States, giving more children access to healthy snacks. 
The bill also expands the Farmers Market Promotion Program and 
provides additional funding for programs that allow seniors and 
low-income families to obtain food at farmers markets. Not only 
do these programs help people eat healthier, they provide an 
additional market for farmers.
    This is, of course, just the start of a conversation. As we 
move forward this year, I believe we must work together on 
issues of farm profitability, entrepreneurship, innovation, 
toward a farm bill that emphasizes flexibility, efficiency, and 
equitable distribution of its Government programs. This will 
help to ensure successful for our family farm enterprises and 
the wider community of farm bill beneficiaries, both large and 
small, near urbanized areas and in more rural settings 
throughout all regions of the country.
    Ideally, an emphasis on the diversity of agriculture and 
related businesses, their interaction with the citizens who are 
their ultimate customers, and the role these enterprises play 
in addressing issues of nutrition, hunger, and economic growth 
throughout our Nation will join with conservation and 
environmental issues to form what I hope you will fashion as a 
comprehensive farm bill that will serve the Nation well for the 
next 5 years and beyond.
    So, Mr. Chairman, thank you for the opportunity, and we 
look forward to working with you. When I ran for the Senate, I 
never thought I would be sitting here before the Ag Committee, 
but to be very honest with you, it is incredibly important to 
our State and obviously to our Nation.
    [The prepared statement of Hon. Robert Menendez can be 
found on page 104 in the appendix.]
    Chairman Harkin. Very true. I am very familiar with New 
Jersey ag. You might not think that, but I am. I will tell you 
about that later.
    [Laughter.]
    Chairman Harkin. I thank all of our witnesses who are here. 
I am going to yield my time right now. Senator Leahy I know had 
to leave early to chair another hearing, and I wanted to yield 
to him for 5 minutes.

STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM VERMONT

    Senator Leahy. Thank you. I think I might be less than 
that. Governor Doyle, Senator Menendez, Senator Cardin, I am 
glad to be here with all of you.
    You will notice that Senator Lugar and I are watching you 
from the back of the room. That is because when the two of us 
first came to this Committee, Senator Menendez, we were sitting 
way down there. And a quick lesson on how things run when two 
cigar-smoking Senators, one being the Chairman up here, reeked 
of cigar smoke; one moved a huge amendment like this; the other 
one said, ``It is accepted without objection.'' I said, ``Could 
I ask what is in the amendment?'' They looked down trying to 
figure out who these two guys were on the end. The Chairman 
kind of shrugs, goes, ``We are adjourned.''
    [Laughter.]
    Senator Leahy. It has just changed, Mr. Chairman, I must 
say. And I want to thank you for----
    Senator Cardin. Senator Leahy, it sounds like the Judiciary 
Committee today.
    [Laughter.]
    Senator Leahy. Where do you think I learned?
    But the 2002 farm bill does represent historic commitment 
to the conservation of America's privately owned farm and 
forest landscape, and in this 2007 farm bill I think we can 
build on the 2002 farm bill, especially in some areas: a boost 
in funding working lands conservation programs, including the 
Environmental Quality Incentives Program, the Wildlife Habitat 
Incentives Program, the Farm and Ranchland Protection Program, 
the Agricultural Management Assistance Program, the Regional 
Equity Requirement. These have been particularly helpful not 
only in Vermont but throughout the country. I hope we can find 
additional funding, Mr. Chairman, for this and actually expand 
the Regional Equity Requirement this year.
    I also think the farm bill presents a unique opportunity to 
expand USDA's working lands conservation programs to ensure 
private forested landowners have access to these successful 
conservation programs and find new, exciting opportunities for 
this reauthorization such as developing an organic conversion 
program within the Conservation Title, to give needed technical 
and financial assistance for producers seeking to transition to 
organic production. A lot of people want to go to organic 
production. It is very difficult that first year or so as you 
make the transition. They need the technical help. They need 
the help to do it. Once they have done it, they can be very--
they can join what is really about the fastest-growing part of 
agriculture. But they have to be able to do it and have that 
transition.
    I might add also in the rural development area, the 
Department of Agriculture has to look again at what they have 
done in rural broadband. They have been very eager to put it 
into cities and towns that already have cable or some other way 
of doing it. But we have got to get it out into the rural 
areas.
    Mr. Chairman, I will put my full statement in the record. I 
do look forward to this farm bill. I have been here during the 
past 22 years for a number of these 5-year farm bills--not 
every 5 years--but it is a tremendous opportunity for things 
that should be done, and I look forward to working with you and 
with Senator Chambliss and getting it done.
    Chairman Harkin. Thank you, Senator Leahy. I just want to 
respond by saying I thank you for all the years on this 
Committee, but in particular for your strong, early, and long-
time support for conservation.
    I dare say no one really matched the breadth, depth, and 
the fervor with which Senator Leahy has brought conservation to 
the forefront over many years. And so we look forward to 
working with you on this title also this year.
    Do any Senators have any questions for our panel? I will be 
glad to recognize, of course, Senator Chambliss, if you had any 
questions for the panel at all.
    Senator Chambliss. They are such a distinguished group that 
they have answered all my questions.
    [Laughter.]
    Chairman Harkin. All right. Senator Salazar?
    Senator Salazar. I do not have questions. I just had a 
welcoming comment to Governor Doyle. Obviously, we see Senator 
Menendez and Senator Cardin all the time, and I am proud to see 
what they do in their States. But, Governor Doyle, welcome 
before our Committee. I remember fondly working with you for 
many years in your service as Attorney General, and I am very 
proud of your efforts as Governor.
    We used to say in those days, before Governor Doyle broke 
through the ceiling of getting an Attorney General elected as a 
Governor, that AG stood for ``aspiring Governors.''
    [Laughter.]
    Senator Salazar. And he actually not only aspired, but he 
got there. Sometimes when I think about John Cornyn, myself, 
Mark Pryor, and others, maybe we were AS's, you know, 
``aspiring Senators,'' and did not quite know it.
    [Laughter.]
    Senator Salazar. Congratulations to you, Governor, and it 
is good to see you here today.
    Governor Doyle. Thank you, Senator. It is good to see you, 
too.
    Chairman Harkin. Senator Lugar, did you have anything?
    Senator Lugar. Mr. Chairman, I just wanted to thank these 
three distinguished gentlemen. It is really great to have their 
testimony and, likewise, hopefully their support of our 
efforts. I know you, Mr. Chairman, and Senator Chambliss are 
trying very hard to pull together a huge number of complex 
issues. This is a very important part, and you know of my 
support, Mr. Chairman, for conservation parts, and I like 
Senator Chambliss' opening comment in which he suggests USDA 
might come forward with standards for carbon sequestration, 
soil, trees, other projects. This is something that we have 
been involved with on my farm, the Chicago Climate Exchange, 
and are trying to work with Purdue on some standards that might 
make this more general.
    But these are ways in which local farmers and farm groups 
at the grass roots can participate in these broad subjects of 
climate change and likewise provide additional income.
    I know that the Governor and the Senators today will be 
working with their farmers who are curious about this. But I 
wanted to underline that particular topic.
    Thank you.
    Chairman Harkin. Very good. Thank you, Senator Lugar.
    Senator Brown?
    Senator Brown. Thank you, Mr. Chairman. Governor Doyle, 
welcome. Nice to see you.
    Ben and Bob, thank you for your comments. Senator Cardin, 
your comments especially were helpful about the Chesapeake Bay. 
Lake Erie has suffered some of the same problems and many of 
the same challenges the Chesapeake Bay has, and I think your 
prescriptive ideas there are helpful, and we will pursue as 
many of those as we can.
    Senator Menendez, on your comments, just a brief question. 
What you say I think is intriguing about matching low-income 
people up, particularly fruits and vegetables, with your 
farmers. I know you have legislation, but talk through, if you 
would for a moment, both from the sort of legislative side of 
what we do to encourage farmers markets and WHIP program and 
all that we can do with fruits and vegetables directly to 
consumers, and if you have any thoughts about what a Senate 
office can do, sort of county by county, community by 
community, to help sort of encourage or stimulate more of that 
in our communities, especially in low-income areas, but not 
necessarily confined to that. If you would just take a minute 
or two on that.
    Senator Menendez. Sure. Well, you know, in New Jersey one 
of our challenges is to get from the producer, from the farmer, 
to the marketplace, and to do it in a high-cost environment. 
And what we have matched is a combination of the producer to 
the school lunch programs so that we can have better 
nutritional opportunities for our kids, to match them with 
after-school programs, and to match them in farmers markets, 
particularly in urban centers, so creating urban support for a 
farming purpose, and in the State of New Jersey creating 
support for bond issues, for example, where overwhelmingly the 
majority of the population of the State is located in either 
urban and suburban communities that are non-farming, but 
support very significant, robust investment into keeping New 
Jersey the Garden State.
    So part of what we seek to do in our legislation is enhance 
the opportunities for farmers to go to farmers markets, to be 
hooked up for children's nutrition, and to incentivize and help 
them in achieving those connections going from their producing 
opportunities to the marketplace and making it more successful 
along the way. And we think that the merger, as we look to the 
agricultural bill overall, where clearly the great bulk of the 
money will not come to areas like mine but, nonetheless, for 
which we are collectively a Nation, that it creates support 
from very important pockets of the Nation to be supportive of a 
broader ag bill that understands that we are all in this 
together, that there are those who produce, those who consume, 
and at the end of the day, if we can make those marriages, we 
do so in a way that is very positive.
    I believe that our legislation helps to incentivize and 
work with and link the farmers to two very important 
opportunities: creating great, high-quality food for urban 
areas, where people have challenges financially and can be able 
to buy that food at very reasonable prices, and at the same 
time improve the nutrition of our children at a time in which 
we are looking at national obesity being a major challenge.
    Senator Brown. Thank you.
    Mr. Chairman, Senator Lugar and I have had conversations 
about food stamps and how the value of food stamps has declined 
in the last 20 years for far too many families. This is so 
important as we try to increase that, but to do much of Senator 
Menendez's comments would be very helpful. Thank you.
    Chairman Harkin. Any other Senators? Senator Klobuchar.
    Senator Klobuchar. Thank you, Mr. Chairman. Thank you to my 
colleagues and also to Governor Doyle. I grew up having my big 
vacations taking the Milwaukee Road to Wisconsin, where my 
mother was from, and my big highlight was visiting Sampson, the 
Gorilla, at the Milwaukee Zoo.
    Governor Doyle. Good.
    Senator Klobuchar. But I just wanted to follow up a little 
on what you have talked about in your written testimony today 
about this biofuel revolution going on in the Midwest. I want 
you to know that we have been working with several members of 
this Committee to introduce legislation that would offer 
incentives to farmers through the Conservation Security Program 
to produce our first generation of dedicated energy crops for 
cellulosic energy production. And I think that there are many 
farmers I know in Minnesota and in Wisconsin that are very 
interested in doing this with prairie fuels and other forms of 
biomass. I understand that we have a very strong corn ethanol 
as well as soybean-based biodiesel industry going, and we want 
to continue that. But as we get more and more of a demand and 
also as we work more and more on the climate change issue, we 
want to develop the next generation of ethanol. And I 
appreciate the Chairman's leadership on this as well as yours.
    My only question would be if you could just expand on some 
of the efforts going on in your State. I know it is happening 
in Minnesota where we have adopted some very aggressive 
standards with electricity as well as ethanol and biodiesel.
    Governor Doyle. Well, Senator, thank you. We have tried to 
work very closely with Minnesota as we have moved forward, but 
clearly cellulosic, when you look at the conservation needs of 
agriculture and switchgrasses and, in States like Wisconsin and 
Minnesota, the vast forestlands that have the potential of both 
preserving those forests, which is one of the great challenges 
in our State--and I know it is in Minnesota--to not see the 
Great Northern Forest carved up, and one of its great uses now 
can be cellulosic energy.
    So we are doing a whole variety of things in the State to 
encourage it. We actually have created a czar of renewable 
energy. And, of course, we are focused on--we have corn and soy 
as well, but really trying to move to the next generation.
    The second part of that I ought to just say that is very, 
very important that we have focused on is the research that is 
necessary to get there. We have helped as a State to capitalize 
companies that are working through various enzymes to increase 
the power of ethanol 10 times over. And so I think we are still 
just at the very beginning of the science of all of this and 
the technology of it. But as we are able to turn grasslands 
that are so important to the overall conservation of our States 
into energy-producing areas, it is a perfect example of how 
conservation and energy really come together.
    So I thank you for your comments. That is something we 
really look forward to working with you on.
    Senator Klobuchar. Thank you very much, Governor.
    Chairman Harkin. Anyone else? Yes, Senator Stabenow.
    Senator Stabenow. Thank you, Mr. Chairman, and welcome to 
our colleagues and Governor Doyle. Senator Cardin, when I think 
about the Chesapeake Bay and the Great Lakes, we have a lot of 
similar issues, and this Conservation Title is very important 
to that.
    I am wondering, though--I am thinking in particular, 
Senator Menendez, because I know you are interested in 
specialty crops--if any of you would want to comment. We are 
considering adding a specialty crop title to the farm bill and 
really talking about what you have talked about in terms of 
nutrition and bringing fresh fruits and vegetables to our urban 
areas and farmers markets and really dovetailing what we are 
doing on nutrition with the need to support our growers. 
Orchards have different kinds of conservation programs than dry 
beans, for instance, both of which are in my State, but they 
have different needs and so on.
    But I wondered if you might--I know you have legislation as 
well, as I do and others, and I wondered if you might just 
speak to the specialty crop issue and your thoughts on that.
    Senator Menendez. Well, I appreciate it, and in addition to 
our legislation, we have joined with you because we believe 
that the unique aspect that you take as it relates to specialty 
crops is very important, certainly important to a State like 
New Jersey with blueberries and peaches and other similar 
crops.
    I just happened to have this past Monday a statewide 
meeting of all my farmers with the Secretary of Agriculture and 
listening to some of their many challenges so that as we 
prepare for the debates that will be coming and the Committee's 
work and what will come to the floor about, from their 
perspectives, some of these challenges. You know, one of the 
things they talked about is, for example, the great importance 
to them of research and having the ability to be more prolific 
in their production as a result of good research, in our case 
as the Rutgers Agricultural Station, in New Jersey. A 
tremendous amount of that research has helped them not only be 
more prolific, but on water quality issues, on food safety 
issues, and it has been very helpful. So that is one part of 
that issue.
    I think also the reality of this whole issue of how do we 
continuously meet the challenges of getting to marketplace, and 
for them often cutting out the middleman so that they can reap 
a greater amount of the profits that they are creating.
    So those are some of the unique insights that they were 
providing to me. There are some others, and I would be happy to 
send them on to you as you pursue your own legislation as well, 
as part of the overall effort.
    Chairman Harkin. Thank you all very much. I just want to 
say, Governor Doyle, you mentioned in your written statement 
how much Wisconsin was putting into conservation, and prior to 
the last farm bill, we looked around and saw a lot of States--
New Jersey, Maryland--a lot of States are putting State money 
into certain conservation practices. It occurred to us that 
there was very little coordination sometimes between the State 
and the Federal.
    And so we put a provision in the last farm bill called 
``Partnership and Cooperation,'' which allowed the Secretary to 
use up to 5 percent of any program money, conservation program 
money, as incentives to work with States to combine State and 
Federal money together and incentivize farmers to use both 
State and Federal conservation programs.
    That program has not been used, quite frankly, in the last 
5, 7 years, and we are going to look at it again. I guess what 
I would ask of the Midwest Governors, if you could for me, is 
to go back to your think tank, your people back there, and ask 
them if they could provide for us any suggestions on how we can 
better cooperate with State governments in maximizing the use 
of conservation monies so we are not duplicating, so that two 
things can work together.
    Obviously, one of the things I have in mind is the 
Conservation Security Program, which was a departure from the 
past. In the past almost all conservation programs had to deal 
with land taken out of production or production practices, 
taken out of production. Well, we thought about providing for 
conservation on working lands, which is the Conservation 
Security Program.
    You mentioned you had a new management plan in Wisconsin. 
Well, that is one of the big parts of CSP. What gets in my mind 
is, well, are we overlapping or are we promoting one another 
here? Obviously, what you are doing is what the CSP is supposed 
to do, too, and that obviously would apply especially to 
Maryland, nutrient management type programs on farms.
    So I am just curious about that interplay between State and 
Federal Government.
    Governor Doyle. Well, I will speak from my experience, 
which is because a lot of people, as I am sure in all of your 
States, work very hard out there, county agents and others, 
they are the ones that sort of have to try to sort these out 
for this complicated menu of some State, some Federal, and then 
a whole variety of State and a whole variety of Federal, that 
are available for a particular farmer who is looking for help.
    So I think there is no doubt we can improve on that. The 
nutrient management is the best example. I have just proposed a 
budget in which we nearly double our State commitment to grants 
going to farmers and others to help them do various things in 
nutrient management to help water quality, which is obviously 
an enormous issue. And for the State of Wisconsin, with our 
rivers and lakes, it is vitally important that we address it.
    I would be happy--I will certainly talk to the other 
Governors and discuss with you and your staff how we best do 
it, because we are all in this for the same purpose, and to the 
extent we can leverage each other's resources in the most 
effective way, it is what we should be doing.
    The same is true of Senator Menendez and the comments he 
was making. We have a very active farmers market program, and 
we have a very rapidly developing organic segment. In fact, we 
are one of the top three States in the country in organic 
products. And, increasingly, farmers are finding those 
specialty products and organic products to be their profit 
centers. We have more and more demand for, as you said, 
Senator, how do you get started, how do you get--and I think 
also the public is now demanding greater and greater 
accountability about where the food sources came form and how 
they were grown, how they were raised. And to the extent that 
we all work together to demonstrate to the American people the 
quality of the food that they have, it is going to be better 
for all of us.
    The point you make is a very, very important one, and one 
that we should be in very close communication with you on.
    Chairman Harkin. Because I want to enhance that cooperation 
program. If you have suggestions from the Governors on how we 
can better do that, I would appreciate that.
    Ben?
    Senator Cardin. Mr. Chairman, I thank you for raising that. 
The cooperative funds could be a valuable source for the 
States. The Bay States, which have done a lot in conservation, 
have requested the use of these funds by the Secretary of 
Agriculture and have not gotten very far with it.
    So I think it might be helpful in the reauthorization 
process to really challenge why these funds have not been used, 
because there is a desire--you are right. Each of our States 
have been aggressive in this area, and it would be much better 
if we worked in cooperation and use the funds effectively.
    So we are looking for every source we can to advance our 
conservation initiatives, and keeping it coordinated would be 
very helpful. So I would urge you just to talk to the Secretary 
about that.
    Senator Menendez. Mr. Chairman, if I may on that point, at 
the same meeting with all the statewide farming stakeholders, 
they mentioned this program that you are referring to. But they 
said that it is so onerous for them to participate in that in 
the balance of choosing whether to do so, they choose not to 
have any Federal dollars. And so I would be happy to share with 
you and the Committee their insights as to how it might be less 
onerous, but still have, of course, all the safeguards you want 
to have and make sure it is appropriately invested. That might 
make it more productive.
    Chairman Harkin. Well, one of the things in the farm bill, 
we said ``up to 5 percent.'' Maybe it should be ``not less than 
5 percent.'' And then try to get over some of the onerous 
paperwork.
    I also want to thank you, Senator Menendez, for mentioning 
the Fruit and Vegetable Program. It has been expanding around 
the country, but it needs to expand further. And you are right 
that by doing it this way, you get a lot of support that you 
might not otherwise get--school boards, families whose kids are 
in school. You just broaden the whole support structure out 
there. Plus with the recent Institute of Medicine report that 
just came out last week, basically saying here is what we ought 
to be doing with food in our schools adds more impetus to us to 
push ahead more aggressively in that area, I think. So I thank 
you for mentioning that.
    Thank you all very much for your testimony. Governor Doyle, 
I look forward, again, to getting any suggestions about how we 
can work more cooperatively with State governments.
    Governor Doyle. Thank you, Senator.
    Chairman Harkin. Thanks, Governor Doyle.
    OK. We have Mr. Olin Sims, Mr. Ferd Hoefner, Mr. John 
Hansen, Ms. Julie Sibbing, and Mr. Bob Harrington on the second 
panel.
    Again, as with the last panel, your statements will be made 
a part of the record in their entirety. I will ask you to keep 
your comments to 5 minutes so we can have a discussion and 
questions.
    We will start with Mr. Olin Sims, President of the National 
Association of Conservation Districts, first became involved in 
1987 when he became a rural supervisor for the Medicine Bow 
Conservation District. He has served as area director since 
1996. He served for 5 years on the NACD board and for 6 years 
as President of the Wyoming Association of Conservation 
District. He and his family operate the Sims Cattle Company in 
Rock Creek Valley.
    Welcome to the Committee, Mr. Sims, and please proceed.

  STATEMENT OF OLIN SIMS, PRESIDENT, NATIONAL ASSOCIATION OF 
            CONSERVATION DISTRICT, McFADDEN, WYOMING

    Mr. Sims. Mr. Chairman, members of the Committee, thank you 
very much. As you said, my name is Olin Sims, President of the 
National Association of Conservation Districts, a rancher from 
McFadden, Wyoming, and my family operates a 700-cow/calf 
operation on 22,000 acres of private, State, and deeded Federal 
leases in Wyoming.
    The 2002 farm bill assisted producers across the country in 
many ways, but in my area of the country, the conservation 
programs are the farm bill. My access to farm bill programs and 
assistance has been limited to conservation programs only.
    My family has utilized conservation program assistance for 
over 40 years. These programs have helped us better manage our 
ecological resources by alleviating impacts to riparian areas, 
better control of invasive species, addressing water quality 
issues, and allowing us to better manage our rangeland 
resources to lessen the chances of overgrazing. This is all 
done utilizing technical and financial assistance provided my 
local conservation district and the USDA NRCS.
    Across the United States, nearly 3,000 conservation 
districts are helping local people to conserve land, water, 
forest, wildlife, and related natural resources. NACD believes 
that every acre counts in the adoption of conservation 
practices. We support voluntary, incentive-based programs that 
provide a range of options providing both financial and 
technical assistance to help landowners manage our natural 
resources.
    Mr. Chairman, my comments today on the Conservation Title 
are based on the recommendations approved by our Board of 
Directors, which includes one member from every State and the 
U.S. Territories. Conservation districts have a unique role in 
conservation program delivery. Our members work with landowners 
and State and Federal agencies to help deliver the technical 
assistance, all part of the locally led process that we 
support.
    NACD's recommendations focus on a priority for working 
lands conservation programs. We believe there should be 
consolidation and streamlining of these programs, making them 
easier for producers to understand, apply for, and easier for 
field office staff to administer. All working ag lands should 
be eligible for these programs--including non-industrial 
private forestlands, fruits and vegetables, livestock, row 
crops, and small production lands that may border urban areas.
    We recommend two working lands conservation programs: a 
modified EQIP and a streamlined CSP program. NACD recommends 
combining the program functions of the WHIP, the Forest Land 
Enhancement Program, the Ag Management Assistance Program, and 
the working land elements of the Grassland Reserve Program into 
the existing EQIP program.
    The existing CSP program should be modified into a top-
level conservation program for the ``best of the best'' in 
natural resource protection. This upper-level program should 
have clearly defined criteria so producers can plan ahead and 
know what their requirements are to participate.
    NACD supports maintaining the two land retirement 
programs--CRP and WRP. The CRP program should continue to focus 
on the special initiatives, continuous signups, and the 
Conservation Reserve Enhancement Programs. CREPs have been very 
successful in leveraging State dollars, creating a partnership 
between the State and Federal Government for protection of 
specific local natural resources.
    The WRP program has been successful in restoring wetlands, 
resulting in improved water quality and wildlife habitat.
    NACD supports retaining the Farm and Ranch Lands Protection 
Program and including elements of the Healthy Forests Reserve 
Program. The FRLPP has been very successful in the Northeast, 
and we need to continue to ensure that this program works in 
other parts of the country, includes forestlands, and works in 
coordination with State programs.
    The Conservation Technical Assistance Program, outside the 
authorization of the farm bill, is critical in assisting NRCS 
offices at the local level to work with districts, landowners, 
and State and local agencies to address local resource 
concerns. CTA assists by working with landowners and operators 
up until the point of entering into a farm bill conservation 
program contract. This assistance is critical.
    Technical assistance is utilized to work with landowners on 
conservation project design, layout, and implementation, and 
also helping landowners understand highly erodible land and the 
necessary compliance for participation in farm bill commodity 
programs. CTA is also critical when working with landowners 
that have smaller operations and not be your typical USDA 
program customer, but need assistance to prepare them for 
participation in conservation programs.
    Mr. Chairman, the 2002 farm bill was a hallmark for 
conservation in this country, and we hope the 2007 farm bill 
will maintain this commitment to conservation. Conservation 
districts believe that every acre counts from a conservation 
perspective and that the farm bill needs to bring its 
conservation benefits to all producers and all ag lands. It 
does not matter whether it is EQIP or CSP, WRP or CRP; on-the-
ground results are what counts, and making sure that we have 
the vehicles to get those results in 2007 will be the principal 
measure of our success.
    Mr. Chairman, Mr. Chambliss, members of the Committee, 
thank you very much for the opportunity to testify, and I am 
more than willing to answer any questions.
    [The prepared statement of Mr. Sims can be found on page 
146 in the appendix.]
    Chairman Harkin. Mr. Sims, thank you very much for your 
statement.
    And now we will turn to Mr. Ferd Hoefner, Policy Director 
for the Sustainable Agriculture Coalition. This coalition 
includes nonprofit organizations throughout the country that 
work directly with farmers and ranchers. Mr. Hoefner has been 
the group's senior Washington, DC, representative since 1988.
    Mr. Hoefner, welcome again to the Committee.

    STATEMENT OF FERD HOEFNER, POLICY DIRECTOR, SUSTAINABLE 
             AGRICULTURE COALITION, WASHINGTON, DC

    Mr. Hoefner. Good afternoon, and thanks for the opportunity 
to testify.
    Let me start briefly by naming four out of our ten 
overarching, non-program-specific Conservation Title 
priorities.
    The first of those would be to reauthorize and update the 
Resource Conservation Act. Previous RCA appraisals have played 
major roles in subsequent Conservation Title policy 
decisionmaking, but the Act comes to an end in 2008 unless it 
is reauthorized by Congress in this farm bill. We suggest 
combining the RCA with the monitoring and evaluation provision 
that this Committee rightly added to the last farm bill and 
then funding that monitoring and evaluation component as a 
percentage of total spending for each conservation program, 
much like we do with technical assistance right now.
    Second, the last Conservation Title made important strides 
on better meeting the needs of beginning farmers and ranchers, 
and we think that should be expanded upon in the new bill to 
encourage the adoption of strong conservation systems that will 
last a lifetime.
    Third, as this Committee addresses a more robust set of 
energy-related provisions, we believe sustainability criteria 
should be established to guide all farm bill conservation and 
energy programs.
    And, finally, we strongly encourage the adoption of an 
enhanced Partnership and Cooperation Initiative administered at 
the State level to support special projects that address local 
environmental and community development problems and 
opportunities.
    Turning to the major Working Lands Conservation Programs, 
let me begin with conservation compliance. Based on the 
recommendations of the GAO, the new farm bill should strengthen 
waiver guidelines and accountability to eliminate the abuse 
that was documented by GAO. In light of the fact that nearly 
half of all excessive erosion is now occurring on land not 
technically classified as highly erodible, compliance 
requirements should also be extended to all cropland eroding at 
excessive levels.
    And, finally, we strongly support the sodsaver provision 
which was passed overwhelmingly by the Senate in 2002. We 
suggest that the budget savings from this provision be 
reinvested into wetlands and grasslands restoration.
    With respect to the EQIP program, we think that steps can 
be taken to better coordinate EQIP with CSP. EQIP can help 
producers get ready for the higher level of conservation 
demanded by the CSP and should provide a ranking system 
priority precisely for that purpose. EQIP should also be 
modified to require that all funded projects promote 
significant progress toward the sustainability criteria for the 
resource concerns being addressed. This change would more 
closely align the two programs and facilitate enhanced 
coordination and improved delivery.
    To assist farmers and ranchers seeking to adopt more 
sustainable systems and to sell into higher-value markets, the 
new farm bill should make stewardship incentives for organic 
farming a priority, including both technical assistance and 
financial assistance.
    Our top priority for the new Conservation Title is to 
restore full funding and make program improvements to the 
Conservation Security Program. In its first 3 years, CSP has 
enrolled nearly 20,000 farmers and 16 million acres in 281 
watersheds across the country, securing over $2 billion in 
long-term commitments to excellence in land care. Great 
progress has been made, but the over $4 billion unfairly cut 
from the program and sharp constraints placed on every 
enrollment to date.
    The program is currently on a timeframe where producers 
would get a once-every-generation chance to enroll. That is 
simply untenable, so it is an inescapable core issue for the 
new farm bill to ensure that the program is available to 
farmers and ranchers on a regular and timely basis. We believe 
the environmental criteria for participation in CSP should be 
refined based on what we have learned in the first 3 years of 
the program.
    The eligibility standard for CSP participation should 
continue to set a very high stewardship level. We would also 
support codifying the current regulatory requirement that soil 
and water quality be addressed at all tiers of participation, 
and we would also support adding wildlife habitat as a 
mandatory resource concern at Tier II as well as the Tier III 
level.
    Initial CSP contracts should include new practices that are 
currently being shunted off administratively to the contract 
modification process. By moving them forward in time to the 
beginning of the contract, the process will be streamlined, and 
producers will have a clearer sense of the requirements and the 
rewards of participation.
    The CSP is the first conservation program to include energy 
conservation as a priority resource concern. We believe that it 
would also be an ideal framework for addressing emerging energy 
production and climate change issues. We are excited about the 
bill being developed by Senator Klobuchar and other members of 
this Committee in this regard.
    Turning quickly to the retirement programs, we are strong 
supporters of the Wetland Reserve Program and really urge the 
Committee to do whatever it takes to find funding to continue 
that program at at least 250,000 acres. Our written statement 
has a lot of recommendations related to the Conservation 
Reserve Program, but given the time I will leave those.
    Thanks for the opportunity to testify, and I would be happy 
to answer any questions.
    [The prepared statement of Mr. Hoefner can be found on page 
87 in the appendix.]
    Chairman Harkin. Thank you very much, Mr. Hoefner, for your 
statement.
    And now we turn to John Hansen, testifying on behalf of the 
National Farmers Union. Mr. Hansen is the President of the 
Nebraska Farmers Union and Secretary for the National Farmers 
Union, operating a diversified grain and livestock operation.
    Mr. Hansen, welcome again to the Committee.

 STATEMENT OF JOHN HANSEN, PRESIDENT, NEBRASKA FARMERS UNION, 
   LINCOLN NEBRASKA, ON BEHALF OF THE NATIONAL FARMERS UNION

    Mr. Hansen. Chairman Harkin, members of the Committee, 
Senator Chambliss, thank you for this opportunity to appear 
before you today. Thanks to the leadership of the Senate 
Agriculture Committee, the 2002 farm bill dramatically expanded 
the size and scope of conservation programs. As we developed 
the 2007 farm bill, it is appropriate that we build on programs 
that are working, modify programs that need improvement, 
combine programs, if appropriate, to reduce administrative 
costs, and, if necessary, look to build new programs where 
needed.
    If we want good resource management, we need good resource 
managers who have a conservation ethic, that believe in leaving 
our natural resources in better condition than we found them 
for future generations. In short, the key to good resource 
management depends on supporting our traditional system of 
family farm and ranch agriculture.
    The National Farmers Union has been a leader in supporting 
conservation programs. We support full funding for EQIP. We 
support permitting State technical committees to set EQIP 
priorities based on the resources needs of the various States. 
Furthermore, as we continue to expand conservation programs, we 
need to keep pace with additional administrative workloads 
involved by increasing and fully funding technical assistance.
    National Farmers Union supports fully funding the 
Conservation Security Program as long as producers have an 
adequate income safety net tied to the cost of production with 
a permanent disaster program. We support the current CRP cap of 
39.2 million acres and additional funding to reflect the 
increases in land values, rental rates, and property taxes.
    We encourage efforts to further enhance and incent wildlife 
habitats in existing CRP acres. National Farmers Union supports 
a new initiative to increase a nationwide buffer strip program 
to protect fragile and vital waterways. The idea of this 
program is to incentivize producers to voluntarily plant 
permanent buffer strips next to rivers and streams that could 
be used for wildlife habitat, harvested for hay, used for 
biofuel feedstocks, to capture carbon, or whatever the 
landowners desires. This is a case of using an ounce of 
prevention to reduce the billions of dollars spent annually by 
local, State, and Federal Governments to deal with water 
quality problems created by non-point source pollution.
    Finally, I want to mention NFU's new carbon credit program 
that is a voluntary, private sector-based program to 
financially reward ag producers for sequestering carbon into 
the soil while also practicing good conservation. In our first 
year, which began last October, NFU has enrolled over 1 million 
acres. The aggregated carbon from these acres will be marketed 
on the Chicago Climate Exchange this calendar year. The Chicago 
Climate Exchange pilot program has recently been expanded while 
also adding a new conservation practice. In addition to the 
current approved practices of no-till farming or planting of 
legumes or grasses on row crop acres, the establishment of 
woodlands, and methane recovery from livestock operations, 
there is a new rangeland management practice for intensive or 
rotational grazing on permanent pastures. We hope the 
conservation plans of the future include the opportunity to 
utilize the benefits of carbon sequestration.
    Thank you, Mr. Chairman, for this opportunity to testify, 
and I will do my best to answer any questions you may have.
    [The prepared statement of Mr. Hansen can be found on page 
76 in the appendix.]
    Chairman Harkin. Thank you very much, Mr. Hansen.
    And now we turn to Julie Sibbing, Senior Program Manager, 
Agriculture and Wetlands Policy, for the National Wildlife 
Federation. She is here representing the National Wildlife 
Federation and this Agriculture and Wildlife Working Group, and 
it includes 16 of the country's foremost wildlife and 
conservation organizations.
    Ms. Sibbing, welcome. Please proceed.

    STATEMENT OF JULIE SIBBING, SENIOR PROGRAM MANAGER FOR 
AGRICULTURE AND WETLANDS POLICY, NATIONAL WILDLIFE FEDERATION, 
                         WASHINGTON, DC

    Ms. Sibbing. Thank you. Good afternoon, Chairman Harkin, 
Senator Chambliss, members of the Committee. I am really 
gratified for this opportunity to testify today on behalf of 
not only the National Wildlife Federation but the Agriculture 
and Wildlife Working Group.
    As Senator Harkin said, the Agriculture and Wildlife 
Working Group has worked together over the last 2 years. It is 
a partnership of 16 of the country's leading hunting, fishing, 
and conservation organizations. There is a full list in my 
written testimony.
    We have set out to decide what the goals and 
recommendations for the future of ag conservation programs are 
over the past 2 years. Our group's consensus set of 
recommendations were published recently in a report entitled 
``Growing Conservation in the Farm Bill.'' I am entering that 
publication into the record as part of my testimony today.
    This is an unprecedented collaboration for 16 large groups, 
collectively representing millions of conservation-minded 
citizens across the country. It has led to solid 
recommendations. Our groups feel strongly that the conservation 
programs provide substantial and broad benefits that justify 
their continuation and, indeed, expansion in the 2007 farm 
bill. I will attempt to briefly summarize some of our 
recommendations here today.
    The group believes that the Conservation Reserve Program 
has overwhelmingly proven its worth over the past 20 years ago. 
By often setting aside the marginal highly erodible lands, the 
CRP has resulted in 450 million tons per year of soil loss 
avoided. We have sequestered over 48 million tons of carbon and 
produced million of pheasants and ducks each year. The Ag and 
Wildlife Working Group recommends that the CRP be expanded to 
its originally intended 45 million acres.
    And just to point out, we do have a visual here that tries 
to make it a little bit more stark. We are not talking about 
taking lands out of corn production. We are talking about half 
of the soils in central South Dakota that are considered highly 
erodible are eroding right now at intolerable rates. And so we 
are talking about trying to put these things into protection 
under programs like the Conservation Reserve Program, and, 
indeed, the expansion is justified.
    The Wetlands Reserve Program has also provided excellent 
habitat for fish and wildlife, as well as increasing 
groundwater recharge, carbon sequestration, and treatment of 
polluted runoff. The program is also extremely popular with 
landowners. Right now there are at least three acres waiting to 
be enrolled for every acre that is enrolled in the Wetland 
Reserve Program, and there is a backlog of over half a million 
acres. The Ag and Wildlife Working Group supports raising the 
WRP enrollment cap to 300,000 acres per year.
    The Grasslands Reserve Program has an enormous potential to 
help conserve one of America's most endangered ecosystem, our 
native grasslands. The demand for the program quickly exceeded 
the cap. Though 900,000 acres were enrolled in the GRP program, 
6.2 million acres went unfunded in 2004. Thus, there is 
significant demand for this program. We suggest increasing the 
Grassland Reserve Program in the next farm bill to 2 million 
acres a year and focusing the land on large tracts of native 
grasslands and long-term easements.
    The Ag and Wildlife Working Group also supports a gradual 
increase in the Wildlife Habitats Incentive Program, ramping up 
from $100 million to $300 million over the course of the 2007 
farm bill. We would ask that a significant portion of the new 
funding be dedicated to aquatic restoration, including instream 
habitat improvement projects.
    The Ag and Wildlife Working Group notes that programs to 
assist forest owners in managing their land and keeping their 
land and forest cover are quite small compared to the actual 
need for such assistance. We support increased technical 
assistance, education, and outreach to forest through existing 
programs such as the Forest Stewardship Program and others that 
provide funding for cost-sharing of forest management 
practices. We also support the increased funding for the 
Healthy Forests Reserve Program.
    The group also supports reauthorization of the Conservation 
Security Program, and we would ask that improvements be made to 
ensure that the program provides increased, measurable, and 
consistent benefits for fish and wildlife conservation. The CSP 
should enhance other USDA conservation programs and not be used 
to replace or reduce their funding.
    The current ag safety net provides substantial price 
support and risk protection to crop producers which make crop 
production possible, even where yields are consistently poor. 
The Ag and Wildlife Working Group supports a sodsaver provision 
in the 2007 farm bill that would deny benefits for new lands 
brought into production, appropriately putting the risk of 
breaking new land on the landowner himself.
    The group supports the development of a voluntary public 
access provision for conservation lands, both through funding 
of State-managed voluntary access programs and through granting 
a higher enrollment priority to conservation program applicants 
willing to include a public access component to their 
applications.
    While the Ag and Wildlife Working Group supports research 
and development funding to promote the next generation of 
biofuels and renewable energy, we would like this to occur 
through the Energy Title and be based on sustainable 
polycultures.
    On behalf of the National Wildlife Federation and the Ag 
and Wildlife Working Group, I want to thank you for the 
opportunity to share with you our collective desires for the 
future of conservation. We look forward to working with you to 
develop a strong Conservation Title that will help to meet the 
needs of both producers and for our soil, water, and wildlife 
resources.
    Thank you.
    [The prepared statement of Ms. Sibbing can be found on page 
106 in the appendix.]
    Chairman Harkin. Thank you, Ms. Sibbing.
    And now our final witness is Mr. Bob Harrington. Since 
2003, he has been a State forester in Montana. He is here today 
representing the National Association of State Foresters, which 
includes the directors of all 50 State forestry agencies.
    Mr. Harrington, welcome. Please proceed.

STATEMENT OF BOB HARRINGTON, STATE FORESTER, MISSOULA, MONTANA, 
    ON BEHALF OF THE NATIONAL ASSOCIATION OF STATE FORESTERS

    Mr. Harrington. Good afternoon, Mr. Chairman, members of 
the Committee. As you said, my name is Bob Harrington. I am 
thrilled to be here and traveled from Big Sky country to 
testify before you on behalf of the National Association of 
State Foresters. And I am here primarily to ensure and to make 
the case that forestry remains a vital part of the farm bill.
    Montana family forest landowners and private forest 
landowners are caught in the middle of three primary forestry 
issues that are facing private forest landowners across the 
country. First is the health and the sustainability of the 
management of their forestlands. Climate change and natural 
events such as disasters--natural disasters, wildfires, insect 
and disease infestations, as well as the tremendously 
devastating hurricanes that hit the Gulf Coast a few years 
ago--have all formed somewhat of a perfect storm to present 
management challenges to those landowners. They are also 
watching as we increasingly see the divestiture of industrial 
forestlands across the country and conversion into real estate 
investment trusts as well as selling lands to timber investment 
management organizations. And they are also quite concerned 
about maintaining the forest industry that we do have in this 
country and ensuring that they have access to markets for the 
forest products off of their lands.
    Now, why are forests important to this farm bill? What is 
the compelling national interest of private forestlands to the 
development of the farm bill? We would make the argument to you 
that, first of all, one third of America is covered by forested 
land; 60 percent of those forests are privately owned, and 
there are tremendous public benefits that are derived from 
private forestlands, such as fiber in the form of wood not only 
for building our homes but for producing paper and other goods 
and supplies. Energy. We know that we have tremendous 
opportunity to utilize biomass not only for heat, energy, for 
the production of electricity, but also some encouraging 
developments in cellulosic ethanol.
    We know that a lot of the watersheds in this country are 
forested. They provide valuable wildlife habitat as well as 
access for recreation. And, as well, I think you should not 
lose sight of the fact that a tremendous number of your 
agricultural producers also have forestland on their property, 
and they benefit tremendously when times are lean in commodity 
prices and other things, to be able to utilize those wood 
products to help support their farm. We believe the farm bill 
has potential to help, and I would like to talk to you about a 
success story, a partnership between Montana Department of 
Natural Resources and the NRCS to use our State staff to 
deliver technical assistance to private forest landowners. 
Through this partnership we have funded State forestry staff to 
provide that technical assistance while they have access to 
EQIP funds to complete forest management projects on their 
property. EQIP has helped us to address the tremendous backlog 
in private landowners who are waiting for such assistance, and 
over 140 projects have been completed on family forestland to 
address issues such as post-wildfire rehabilitation, hazardous 
fuels reduction, and thinning to improve forest health.
    Mr. Chairman, I believe I attached or I had distributed to 
you examples of the types of projects that we have funded in 
Montana with that.
    What are the keys to this success? First and foremost, we 
needed leadership and commitment from the NRCS State 
conservationists, and myself and our staff that we were going 
to work together to deliver these results to private forest 
landowner programs. We initiated and signed a memorandum of 
understanding as well as agreement on cost reimbursement to 
both our agency as well as the private forest landowners. And 
we have each participated on technical committees, such as the 
State Technical Committee for the NRCS, and the NCRS is 
represented on our State Forest Stewardship Committee. The 
problem is this success story is only occurring in a handful of 
States. The vast majority of my counterparts have told me that 
they have been frustrated acquiring access to the EQIP program 
in their States.
    So what can you do? First and foremost, you can expand 
authorities for forestry in the farm bill. You can provide 
clear direction in the managers' report on congressional 
intent. You can hold agencies accountable for forestry 
assistance accomplishments to private forest landowners.
    We have talked to your staff, and we have reviewed 
different proposals to combine redundant programs, and we are 
certainly supportive of that effort provided that we can be 
sure that forestry programs and private forest landowners 
continue to have access to those programs.
    So, in summary, Mr. Chairman, I would like to encourage you 
to strengthen the forestry language in the 2007 farm bill, 
utilize State forest stewardship programs and forest landscape 
assessments to market and focus NRCS cost-share programs, 
ensure the NRCS and other USDA agencies will promote 
cooperative relationships with State forestry agencies, and, 
last but not least, I would like to encourage you to ensure the 
capacity of State forestry agencies to deliver the private 
forest landowner programs and that they continue to be the 
primary delivery mechanism for private forest landowner 
assistance.
    Mr. Chairman, thank you very much, and I am more than 
willing to answer any questions.
    [The prepared statement of Mr. Harrington can be found on 
page 83 in the appendix.]
    Chairman Harkin. Well, thank you, Mr. Harrington. Thank you 
all very much for your testimonies. I do not mean to single 
anyone out, but, Mr. Hoefner, thank you for a very 
comprehensive statement that I reviewed last night. It has a 
lot of good data and things, and I appreciate that.
    I will just start off with 5 minutes, and then I will yield 
to my colleague, Senator Chambliss.
    We have two things in conservation. We have the land 
retirement programs where we take land out of production. The 
Wetlands Reserve, and Conservation Reserve Programs protect 
wildlife habitat, clean water, fisheries, wild fowl, restore 
wetlands, that type of thing. A lot of these lands are 
erodible. We know that if they go into production, they are 
going to wind up in our rivers, our streams, our lakes. And so 
we have had a series of programs designed for these purposes.
    Then the other part of conservation is the conservation we 
want farmers to practice on working lands. After all, we are 
producing. I hope we continue to produce. And now we are going 
to be producing not just food and fiber but also for fuel. We 
are going to have a big demand, hopefully, Senator Lugar, for 
cellulose, and we are going to move very rapidly. And we want 
to move into cellulose, and we are going to try to address that 
in this farm bill also.
    Here is kind of a problem that we may have. You know, we 
cannot force anyone into conservation. These are voluntary 
programs. So CRP, for example, is a 10-year voluntary program, 
and farmers bid in land. Well, if I could divide it up this 
way, on the one hand, on the one part of CRP, you have what I 
call the ravines and gullies that are highly erodible, should 
never be cropped, and when those contracts come up, you can 
probably bid those in, and we can afford to pay those 
contracts.
    On the other end of the spectrum, there is some very level 
land, very flat, that is in CRP now. But because of high grain 
prices, there is no way that we are going to be able to afford 
to get those back in.
    In the middle of that, there are the hills. They are highly 
erodible. They are productive. You can produce some kind of 
crops on them, but they are highly erodible.
    Now, if a farmer sits down and pencils out and says, well, 
gee, you know, with the price of corn what it is, or beans what 
it is, gee, maybe I should just--I am not going to renew my 
contract. Or if I do, I am going to bid it in at such a high 
price there is no way we have the money for it.
    Now, with the demand that we are going to have for 
cellulose crops and for cellulose production in this country 
for energy, it seems that we might be able to have a win-win-
win situation here. If a lot of this CRP land is coming out 
that might go into crop production, unless we can afford some 
way to keep it in--and I do not know if we have enough money to 
do that with the prices the way they are--what about if we 
looked at a situation where in this middle ground I am talking 
about, that middle part, you say to a farmer, OK, here is what 
we will do. If you sign up for 10 years, we will give you a 
reduced CRP payment, maybe a third of what you got before; then 
we will give you a CSP payment because we expect you to produce 
something on the land, and then you can produce a conserving 
crop on that land, an identifiable conserving crop such as a 
switchgrass, for example, or prairie grass, or alfalfa, or 
trees; crops that would be highly conserving in nature. Then 
the farmer could go ahead and sell that, market that. So the 
farmer gets three parts: he gets marketing, CSP, and CRP. And 
then maybe there would be enough money then to entice them into 
a long-term type of arrangement.
    I say that to you because you need to be thinking about 
this. We all want to increase--I have heard people want to 
increase CRP acres. Please tell me where we get the money. If 
you have suggestions where to get the funds, I am open for 
that. We want to enhance CSP, lid but that requires money. And 
WRP, we have no baseline in WRP. I just mentioned it in my 
opening statement, $2 billion just to continue WRP.
    So we have got to be looking at ingenious ways by which we 
can enhance conservation and at the same time continue to 
produce, which we are going to do, but in a conserving manner. 
And so I am hopeful that you will take a look at how we combine 
some of these things and put them together to get the most for 
the dollar that we will put into it.
    If any of you have any response to what I just said, I 
would be glad to recognize you for that. Otherwise, I will go 
on and just leave that as a statement. Mr. Sims or Mr. Hoefner?
    Mr. Sims. Yes, Mr. Chairman, members of the Committee, you 
have laid out quite a scenario that is very real in front of 
all of us, and I think it is extremely important as we move 
forward. We have witnessed the benefits of the CRP program over 
the last several years, many years.
    Chairman Harkin. Absolutely.
    Mr. Sims. And we have also recognized the fact that with 
the new opportunities in agriculture, being able to produce 
energy crops, that we are seeing some acres that are going to 
halve and are going to come out of the CRP program. And that is 
a good thing as long as we make sure that we have a program 
available still, CRP program, to protect those most highly 
erodible, most environmentally sensitive lands.
    I think part of that plays back to the fact of the 
importance of the conservation technical assistance being 
available for those landowners, producers, to be able to go in 
and talk with their field office staff and make that decision 
whether it is worthy of pulling that land out of the program. 
Also, I think we can take that one step further and make sure 
that if there are lands pulled out of the CRP program to go 
into an energy crop, we need to be looking at comparing soil 
types to crops. Perhaps pulling a certain soil out for a row 
crop maybe is not such a good idea, but for a more grass-type, 
biomass-based crop might be more appropriate because those are 
not annually planted. They are more of a long-term type crop.
    So I guess I would offer that at this point.
    Chairman Harkin. Well, we thought about one thing, about 
getting land grant colleges around the country involved in 
having demonstration farms to demonstrate. What might be good 
in Wyoming is not good in Iowa, et cetera, et cetera.
    Did you have something, Mr. Hoefner?
    Mr. Hoefner. Yes, just a few policy thoughts on that.
    One is you mentioned at the outset that there is land in 
CRP that should definitely remain there long term, and we are 
getting ready to put in a lot of that land for the third go-
round. We think it is time to start talking about a voluntary 
long-term easement option within CRP to deal with some of that. 
So I would start with that.
    Another question that immediately comes to mind in this 
context is, What about compliance? You know, if we have good, 
effective enforcement of compliance, then that land that does 
come out of CRP will still have a level of protection. But we 
are very nervous right now that we do not have that level of 
compliance that we once did have.
    And then I would also mention that another really good 
option, for land that is coming out, would be to make sure that 
the landowner has the option of keeping in conservation buffers 
so that they can continue in the continuous signup even as part 
of the field then goes into some kind of energy crop 
production.
    So I would just throw out those ideas.
    Chairman Harkin. Very good.
    Who else? Mr. Hansen, then Ms. Sibbing.
    Mr. Hansen. Yes, I think that one of the things that we 
have looked at in Nebraska--and it is, I think, a regional 
problem of significance that the Committee ought to think about 
as well--is the emerging problem of water-short areas in the 
West that are really struggling with how to deal with reduced 
irrigation and access to water.
    And so as we look at western Nebraska, eastern Colorado, 
northwestern Kansas, Wyoming, South Dakota, we are seeing some 
areas that really are struggling with reduced water. And so one 
of the things that we have thought about in trying to modify 
the CRP program in a fashion that would be a shorter-term CRP 
program that would be geared toward transitioning traditional 
row crop into grasslands and biofuel, cellulosic-based type 
production, and that that seems to make a good transition, 
makes good sense in terms of trying to respond to the economic 
problems. And in our State, we are getting--EQIP, we are 
getting twice the requests as we have money, but in the case of 
all the water-conserving programs, we are getting about 4.5 
times right now the amount of requests as we have funding.
    Chairman Harkin. Thank you.
    Does anyone else have a comment on what I just said? Ms. 
Sibbing.
    Ms. Sibbing. Yes, thanks, Mr. Chairman. We are aware that 
CRP is coming under intense pressure for corn ethanol, and many 
people are going to be weighing their options whether to come 
out or not. It will not be a purely economic decision in all 
cases, as some people have developed a tradition of hunting on 
those lands and do appreciate the pheasants they produce, et 
cetera.
    The wildlife community is pretty unanimous in not 
supporting the use of CRP for this purpose. We think that the 
purposes of soil, water, and wildlife are incompatible with 
biofuels production. The National Wildlife Federation has, 
though, promoted a program that I believe Ducks Unlimited is 
also supports that would create an Energy Title program that 
would be specific to production of biofuels----
    Chairman Harkin. Ms. Sibbing, I hate to interrupt you, but 
if CRP land is going to come out, we cannot force anyone to 
stay in the CRP program.
    Ms. Sibbing. Right. We appreciate that.
    Chairman Harkin. So it seems to me that----
    Ms. Sibbing. If it comes out----
    Chairman Harkin [continuing]. If you can grow a conserving 
crop on it that provides wildlife cover, it seems to me that is 
better than the other possibility.
    Ms. Sibbing. No. That is why we would offer enrollment in 
this new program for those that are coming out of CRP. However, 
the nature of biofuels is such that we are going to have to 
have a 200,000-, 250,000-acre area in a small 50-mile radius in 
order to service some type of facility. So it is not all going 
to be CRP. We would like to look at taking land from CRP that 
is coming out as well as other marginal lands and other lands 
that landowners are willing to put into, but giving it a full 
start and heading at energy as the production purpose.
    Chairman Harkin. Thank you all very much. I have taken more 
than my amount of time.
    Senator Chambliss?
    Senator Chambliss. Thank you, Mr. Chairman.
    Mr. Harrington, I was in southeast Georgia yesterday. We 
have a forest fire burning down there that looks like, if 
something does not happen, we are going to exceed burning of 
100,000 acres in the southeast part of our State. And I was 
particularly impressed by the job that Alan Dozier, who is our 
chief firefighter at the Georgia Forestry Commission, is doing.
    The one thing that really impressed me about the great job 
that is being done down there or in addition to the great job 
that is being done down there is the cooperation and the 
assistance that we have had from our surrounding States. I do 
not think we had anybody from Montana, but I am satisfied if we 
do not, the only reason we have not is because we have not 
called you.
    You folks have a great brotherhood and a cooperative spirit 
that is unlike anything I had ever seen before, and I just want 
to commend your organization and ask you to pass on our great 
thanks from the southeastern part of our State for the great 
work that firefighters are doing from all over the country to 
help us solve that problem down there.
    Interestingly enough, we talk a lot about forest management 
and what we can do to prevent forest fires, but we do a pretty 
good job of managing forests in our area. We have done a lot of 
prescribed burning over the years in this part of the State, 
and yet it is so dry you just never know what is going to 
happen. And you guys have a very difficult job out there, and 
we appreciate you.
    Mr. Sims, the NACD supports combining the programmatic 
functions of the Working Lands Program and an expanded EQIP 
program. And I understand this would help make the programs 
easier to use for producers and to deliver for the agency, but 
there are many who believe consolidation will reduce or 
eliminate special purposes of these separate programs.
    What is your thought about this?
    Mr. Sims. Mr. Chairman, Mr. Chambliss, we certainly support 
the goals of each one of those individual programs, and we do 
not want to lose sight of those. OK? Our intent in what we 
offer to the Committee for consideration is streamlining the 
administrative side of it so it is easier for the producers to 
get in the door, to get access to the program, and easier for 
the field office staff to deliver those programs. Our intent is 
to simplify that process, not to lose the goal, not to lose 
sight of the intent of those programs, and certainly want to 
hold out, you know, the historical funding that has been 
available in the 2002 farm bill for each one of those programs, 
we want to hold that intact, but it is more from the 
administrative side to make that easier for the producers and 
easier for the field office staff to administer.
    Senator Chambliss. Mr. Hoefner, the Sustainable Ag 
Coalition has a slightly different position than NACD on the 
proposal to consolidate these programs. Do you believe the same 
benefits will be achieved if Congress directed USDA to 
consolidate administratively instead of actually consolidating 
the program?
    Mr. Hoefner. We do, and I should state at the outset that 
we are not categorically against combining the programs, but we 
think that that is probably a tough political challenge. So 
what we are proposing is that the Committee give some 
directives to move toward combined application forms and 
contract paperwork forms, and also revive the idea that 
conservation planning can be a gateway to all the programs, 
whether it is working lands, retirement, easement, or whatever. 
I really think that that has a lot of merit to it--not that 
every applicant will go through that process, but for those who 
chose to, that once you develop that comprehensive conservation 
plan, it can then be tailored to the programs that make most 
sense to accomplish what the producer is trying to produce. So 
we think that would give you some streamlining of program 
delivery, and perhaps those people who go through that process 
and really develop a total resource management plan could get a 
bump-up in the rating system or in the payment schedule under 
various programs, and we could really encourage more producers 
to do that.
    Senator Chambliss. Mr. Hansen, USDA has proposed to create 
a board to develop standards for agriculture to participate in 
the carbon credit trading program or other ecosystem service 
markets. What do you think of the proposal? Do you think more 
robust standards such as measurement and verification protocols 
are needed?
    Mr. Hansen. Well, Senator, the Chicago Climate Exchange is 
a market-based, private sector entity that has to date created 
the framework and the program standards under which the 
programs that organizations like mine aggregate carbon and sell 
the aggregated carbon. And so we have not seen anything to date 
that would tell us that those standards are not good standards, 
that they are not being enforced. They have a protocol relative 
to enforcement, and they do field inspections, and that is part 
of how they operate, and so they have been in our view fairly, 
we think appropriately cautious in developing standards in 
expanding programs, making sure that they are able to chew, if 
you will, what they have bit off before, before they expand. 
And so we have not seen, in my view, a problem yet that would 
indicate that there needs to be a remedy.
    Senator Chambliss. I thought your concept you talked about 
in your opening statement was interesting. Are you operating 
this as sort of a co-op of farmers where you are aggregating 
the product you have to sell to the exchange?
    Mr. Hansen. The initial program was initiated by the North 
Dakota Farmers Union, who operated it for about a year in terms 
of aggregating carbon in the State of North Dakota, and then 
about 9 months into that program, the National Farmers Union 
expanded that program by authorizing all of the Farmers Union 
State organizations across the country to participate in that 
as aggregators. And North Dakota continues to administer the 
program, so we have an efficiency and a consistency in 
administration. So North Dakota actually carries out the 
aggregation and the paperwork. And so we are basically 
marketers, make the information available to producers, and 
then they are able to go through the Internet with a complete 
Internet access signup. So we keep administrative costs to a 
minimum.
    We follow the same standards as do all other aggregators, 
and all of the enforcement, for example, of the standards is 
done by the Chicago Climate Exchange. If that answers your 
question.
    Senator Chambliss. Ms. Sibbing, the Agriculture and 
Wildlife Working Group is asking Congress to greatly extend 
conservation programs. As you will recall, the 2002 farm bill 
increased the Conservation Title by about 80 percent. We are in 
very difficult budget times right now, but being an avid 
outdoorsman, one who particularly loves to hunt and fish, from 
a top priority standpoint how would you categorize your needs 
relative to improving wildlife habitat, wildlife production?
    Ms. Sibbing. Well, we have not categorized our asks, but I 
would say that probably our top two asks are the Conservation 
Reserve Program and the Wetland Reserve Program, ensuring that 
those programs are continued and robust in the next farm bill.
    Senator Chambliss. OK. To all of you now, and we will start 
with you, Mr. Sims: Everybody wants to spend more money in 
conservation. I would love to spend more money in conservation. 
These are difficult budget times. Which title are we going to 
get the funding from to put into conservation, Mr. Sims?
    Mr. Sims. Mr. Chairman, Mr. Chambliss, thank you very much 
for that question.
    [Laughter.]
    Mr. Sims. I appreciate being first on the panel to answer 
it.
    I will offer you this: The need and the demand for 
conservation assistance out there on the land has not decreased 
any. We have got excellent producers, stewardship, stewards of 
the land out there working right now. But based on the demands 
of society to have clean air, clean water, no soil erosion, the 
need for conservation programs is greater today than it 
probably ever has been.
    And so where do we go to cut? Sir, I cannot answer that 
question. I can offer to you that the need for the programs are 
critical, strong, strongly needed out there on the ground.
    Senator Chambliss. Well, and I should not have phrased the 
question the way I did. Let me rephrase it a little bit. You 
can answer again if you need to. But there may be ways that we 
can rework the Conservation Title, if you have any thoughts on 
that or there are some weak areas that you see that we can make 
stronger on programs that each of you have talked about. So I 
should not have said where do we get the money from, but if you 
have an ideas about reworking the Conservation Title, you might 
include that.
    Mr. Hoefner?
    Mr. Hoefner. Well, I would just offer two thoughts. One, 
there are a few provisions that many of us support that do save 
money, one of them being the sodsaver provision that I 
mentioned in my statement, and I think Julie did in hers. That 
would save significant amounts of money that could then, you 
know, maybe help solve the WRP baseline problem. So I think we 
need to, you know, look at those kinds of options and then 
spend as smart as we can, given what we have.
    You know, the only other thought I have is that we want to 
work with you and the Budget Committee and the Finance 
Committee to make the reserve fund into something that is 
tangible and real so that these needs and opportunities can be 
addressed.
    Senator Chambliss. Mr. Hansen?
    Mr. Hansen. Well, I think that Title I has a lot of the 
same problems and challenges that this title has in that they 
are seeing a lot fewer dollars available in order to accomplish 
the priorities of that title. And so, you know, we have tried 
in Title I to try to look at how you take the available dollars 
and come up with a more cost-effective and yet effective income 
safety net in that particular title.
    In this title, I think that having a background--having 
been a local public official from 1974 to 1990 in the 
conservation arena, to me you go back to the same things that 
you always do, which is to prioritize the needs of the 
resources and then as cost-effectively as possible try to put 
money for the highest resource needs first, and then spread 
that as far as you can.
    Well, one of the things that we found out in the current 
conservation program--and thanks to the 2002 farm bill--is that 
we found out that if you actually provide an effective carrot 
and an incentive to agricultural producers, they are, in fact, 
motivated to do that which needs to be done if you take away 
the financial barrier to being able to do it. And so we feel 
that we have to protect the income safety net of farmers first, 
so we are not inclined to steal from Title I. But we also 
believe that we constantly have to look for ways to get more 
bang for our buck and still spread more dollars over the 
resource base as we go forward.
    It is a tough decision, it is always a tough decision. But 
from my perspective in all the years I have been working in the 
conservation arena, it is very encouraging to note that 
producers are willing to do that which needs to be done when 
given the opportunity to do so.
    Senator Chambliss. Ms. Sibbing?
    Ms. Sibbing. Well, I would add to Ferd's comment that we 
are not yet giving up. We are working sincerely, all our 
groups, with the Budget Committee members and the leadership to 
point out the real substantive needs to fund energy in this 
next farm bill as well as conservation programs. So we are 
making that ask and working hard at that.
    Mr. Harrington. Senator Chambliss, first of all, I did not 
have a chance to thank you for your earlier comments about the 
response in Georgia to those wildfires. The State foresters as 
well as our cooperators both in local government and the 
Federal Government are quite proud of the efforts that are made 
by everyone to respond to fire seasons as they shift around the 
country. And I am sure hopeful that the same people are going 
to be available this summer, July and August, when the fires 
come to Montana. So, again, thank you for that.
    I am afraid I do not have a silver bullet either. I did 
mention earlier some cost efficiencies in utilizing existing 
staff and eliminating redundancies, an example of where we are 
using existing State forestry staff to deliver programs rather 
than to create additional staff to implement those in the case 
of forestry. And the other thing that comes to mind is this is 
not within the Conservation Title but something of great 
concern and importance to the State foresters, and that is the 
issue of fire borrowing--paying the U.S. Forest Service fire 
suppression costs out of the agency's budget. I think, Mr. 
Chairman, when you led off with this hearing, you discussed how 
this Nation historically has not and should not pay for 
disasters out of agency budgets or out of programs, and yet 
that is exactly what is going on with the U.S. Forest Service 
budget. This year it is projected that fire suppression costs 
will comprise approximately 42 percent of that agency's budget 
just due to how that is calculated, and this is having all 
kinds of impacts, not only on State and private programs that 
we rely on in partnership with the Forest Service such as the 
Forest Stewardship Program, and really affecting the 
availability of monies for us to be able to fund some of those.
    They are within the Department of Agriculture, if we could 
figure that out, and there are significant savings there for 
conservation programs in the forestry programs at the very 
least that we work in.
    Senator Chambliss. Thank you very much.
    Chairman Harkin. Mr. Harrington, we specifically added 
forestry as an eligible land use to EQIP in the 2002 farm bill. 
Your State has had good experiences, from what you have said, 
in that. But that does not seem to be the case everywhere else. 
So what would you suggest we do in order to ensure forestry 
receives better treatment in EQIP? If you have specific 
suggestions on how we modify it, I would be happy to get that, 
either now or later.
    Mr. Harrington. We could certainly provide you detailed 
comments on behalf of NASF, but first and foremost, I think it 
is difficult to legislate vision and innovation and commitment. 
We have benefited greatly from that in Montana on the part of 
the NRCS State conservationist and his staff. And I guess I 
have benefited as well from some visionary staff on my part. So 
this is a true partnership, but in those States where we are 
having difficulties, Mr. Chairman, I think it is simply a case 
of personalities and the cultures of individuals. And that is 
very difficult to legislate.
    What I think you can do and what I mentioned in my 
testimony is to provide clear direction in the managers' report 
associated with this farm bill of the expectations and 
congressional intent for forestry accomplishments, and then 
through hearings with the leadership of the NRCS and other USDA 
agencies is to hold them accountable for accomplishments across 
the country, for forestry assistance to private forest 
landowners. And I think that is something that you can do. It 
is not necessarily something that you put in the title of the 
farm bill. But it is something that in your capacity of 
oversight of the executive branch, I think that you could hold 
them accountable and ask them why in the case of EQIP we have 
relatively few States, five or six States nationwide, where 
there is any kind of partnership whatsoever, and we have the 
vast majority of the States where forestry assistance is really 
not being made available for private forest landowners, either 
at the State technical committees level or at the local county 
committee level.
    Chairman Harkin. Well, again, if you have any specific 
things, let us know.
    Ms. Sibbing, I want to get back to the CRP thing. Look, I 
am not hung up on what anybody calls anything. Whether you call 
it energy reserve or modified conservation reserve, it does not 
bother me any. The problem is, again, that middle ground of CRP 
land. What happens to it?
    Now, again, you say, well, you want to put that in energy 
reserve. Fine with me. But, again, we are still going to have 
to provide some level of support that would equal what a farmer 
might anticipate getting out of row-cropping it with high-
priced corn, for example, or high-priced beans.
    So there has got to be some combination of things there. We 
know we want it--we know some things. We want that land 
conserved. We want it in a conserving nature. So if it is going 
to be energy crops, then you want certain energy crops that are 
by their very nature conserving. Then you want the farmers who 
are growing those to do it in a conserving manner, so you want 
them to meet certain conservation practices. And then you hope 
that they would do it over some period of time. You would not 
want them 1 year and, OK, the price of corn booms up, and they 
take it out the next year. You cannot have that. You want a 
longer period of time.
    So, again, I invite your thoughts and suggestions as to how 
we look at that vast amount of CRP land that can be coming out 
that we just simply will not have the money up front to bid in. 
But we are going to have to find some combination of things.
    I like the idea of an energy reserve. I mean, that is 
basically what we are talking about, and I just did not want 
to--but when you talk about expanding CRP to 45 million acres, 
does that include your bioenergy reserve that you ere talking 
about?
    Ms. Sibbing. No, sir, it does not.
    Chairman Harkin. That is separate and apart from that?
    Ms. Sibbing. It is a separate program.
    Chairman Harkin. Well, please tell me where we get the 
money to expand to 45 million acres of CRP. We will be lucky to 
hang onto 36 million acres.
    Ms. Sibbing. Well, sir, we would like to hang onto what we 
can of CRP.
    Chairman Harkin. I would, too.
    Ms. Sibbing. But I think most critically we would like to 
hang onto the original purposes of the Conservation Reserve 
Program, and we are not opposed to taking land that is coming 
out of CRP and putting it into a biofuels reserve. The key 
here, I think, is to give it a new purpose in that program of 
producing energy and having some, you know, safeguards as you 
said, putting it into a resource-conserving crop and managing 
how that is handled and putting it into a longer term and 
giving them some support.
    We are aware that energy and alternative energy is one of 
the top priorities of Congress right now, and we would like to 
see that reserve fund really dedicated to energy because we 
think it does deserve support in this farm bill.
    Chairman Harkin. Well, as I have said many times--and I 
keep saying it--we have a chicken-and-egg situation here. We 
want to get private investment into cellulosic plants, but you 
cannot get that now because investors are saying: Well, where 
is the feedstock? You want to get farmers to produce cellulose 
material, and they are asking the question: Where is the 
market? So you have got to get them both going, but there has 
to be incentives in there for farmers to do this.
    Ms. Sibbing. Oh, we agree.
    Chairman Harkin. And that is why we have to think kind of 
creatively about how we build a system that is not just all 
Government but is also market-driven, also, and get the market 
forces working--maybe not up front, but as time goes on, more 
and more of the market will take over, like it has in corn 
ethanol. We do not need to support corn ethanol now. It has got 
quite a good market out there. It is doing quite well on its 
own. But we do to get cellulose started.
    Mr. Hoefner, I wanted to ask you one question. You advocate 
reducing the maximum amount a producer can receive from EQIP 
over a 5-year period to $100,000. If I am not mistaken, now it 
is $450,000. That is a big reduction. What would be the effect 
of that? What would happen if you did that? I mean, who would 
it affect? It is going to affect somebody.
    Mr. Hoefner. Well, I think the way to look at that is from 
the standpoint of where did EQIP start. I mean, when it started 
in between 1996 and 2002, the payment cap was $50,000, so 
$100,000 would be double what it was just a few years ago. You 
know, in our view, unfortunately, that payment cap was raised 
ninefold in the last farm bill. It is one of those distribution 
questions where it is actually kind of typical. It is a small 
percentage of the producers and a much larger percentage of the 
total money. We cannot sit here and tell you exactly what those 
numbers are, unfortunately, because the Department of 
Agriculture does not collect the numbers in a way that you can 
give an intelligent response. However, the best guess I can 
give you is it is about 2 percent--people who would be over 
$100,000 would be about 2 percent of the participants, and 
roughly 15 to 20 percent of the total funds.
    In the context of a program where two out of every three 
farmers are getting turned away because there is not enough 
money, we would simply raise the question: Is it equitable for 
some people to get $450,000 when the average payment is 
$15,000? We do not think so. We think we can spread that money 
around much better with a reasonable payment cap that would 
still be twice what it was in the 1996 through 2002 period.
    Chairman Harkin. Let me just say to all of you, I thank you 
very much for your testimony, more than that just for your 
strong work in conservation. But like Senator Chambliss said, 
you know, we have got a lot of competing demands in this farm 
bill, and our baseline is not good compared to what it was 5 
years ago. I wish we had that baseline at a time when more and 
more demands are going to be made. So there are going to be 
some real, I think, battles ahead on how that is allocated and 
where it goes.
    So for those who are interested in conservation, you are 
going to have to battle for every penny and build the 
constituencies that are necessary for this. Unless we can get a 
better allocation somehow--I do not know. We have got--we still 
do not have our budget numbers, but we are supposed to have 
this $20 billion reserve fund, which does not mean anything 
unless you get the money. It is not like they are giving us $20 
billion. It is only if we offset it someplace. And good luck on 
that one under PAYGO rules.
    So we do have to--I think we will try to see what we can 
get from different--the Finance Committee and others. I just do 
not know what we can get, and it does not look too good.
    I do think, however, that as various things array 
themselves in this bill, I think we have to ask whether or not 
the money that we have and the pot that we have is being 
allocated fairly, equitably, and to meet the emerging national 
interests of this country. So we have to think about that. We 
have to think where are those big pots of money that we have, 
whether it is in Title I or wherever, and ask the questions: Is 
that money going out fairly, equitably, serving a defined 
national purpose? Or are we just doing things because that is 
the way we have always done them? And who benefits from that? 
And we have to be maybe thinking anew about how we allocate all 
this money out there.
    But having said that, I mean, powerful forces are arrayed 
to make sure that whatever I am getting now I continue to get, 
or I get more, if you see what I mean.
    So those of you who are interested in conservation, I 
agree, we need to do more in conservation. I think there is a 
national need. I think there is a national payoff for it. I 
think it can be coupled with bioenergy where we can begin to 
produce more energy crops, and at the same time have good 
conservation. And we can still meet our food and feed needs 
with our row crops and our storable commodities.
    But that is going to require, as I said, the input from all 
of you and to make sure that we continue to hear from you as 
this farm bill is developed. When we did the Conservation Title 
in the 2002 farm bill, we had support. I am not saying we did 
not have support. But I remember it well. I sat in this chair 
at that time, and I remember the battles, not only in this 
Committee but on the floor and in conference. What we wound up 
with is not what we started with, and even with that big 
increase.
    But I just, again, urge you and through your associations 
and other things to make sure you build the constituency so 
that people here in the Senate and in the House know that, as I 
said in 2002 and I keep saying, conservation ought to be viewed 
as a commodity, ought to be treated the same as a commodity. 
That is why the CSP program is an uncapped entitlement program, 
just like every commodity program. Treat it like a commodity. 
It has an inherent value. It defines--within it, encompasses 
national security and the well-being of the people of this 
country. So it ought to be viewed not just as a stepchild of 
agriculture but as something integral to all of our programs. 
So I hope that you will continue to give us the benefit of your 
input on this.
    I have no more questions. With that, I thank you all very 
much, and the Committee will stand adjourned until May the 9th.
    [Whereupon, at 4 p.m., the Committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                              May 1, 2007



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                              May 1, 2007



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


                         QUESTIONS AND ANSWERS

                              May 1, 2007



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
